November 23, 2010

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

MARIE THERESE DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUBJECT: Management Advisory – Substantial Savings Available by Prefunding
         Pensions and Retirees’ Health Care at Benchmarked Levels
         (Report Number FT-MA-11-001)

This self-initiated report presents the results of our review and benchmarking of the U.S.
Postal Service's prefunding of pensions and retiree health care liabilities. Our objective
was to identify and benchmark prefunding levels of public and private sector entities for
both pensions and retiree health benefits and determine whether substantial cost saving
opportunities for the Postal Service exist (Project Number 10BS002FT001). We will be
conducting a follow up audit to determine whether the Postal Service might use its
assets to address these liabilities. This report addresses financial risk. See Appendix A
for additional information about this topic.

Prefunding retiree liabilities, such as pensions and health care, is a prudent way to plan
for an organization’s future. The process involves setting aside current funds to address
liabilities that current employees will generate for the organization after they retire.
However, the Postal Service is experiencing a serious financial crisis. The size of the
Postal Service workforce, its extensive benefits package for employees and retirees,
and the required levels of prefunding require significant attention. In testimonies before
Congress1 and elsewhere, the inspector general has discussed the concept of
prefunding Postal Service pensions2 and retirees’ health care at less than 100 percent
of the Office of Personnel Management’s (OPM) actuarially estimated liability.

This report discusses results of our review and benchmarking of pension and health
care prefunding and identifies the overfunding that results due to current requirements.


1
  The inspector general's written statement Continuing to Deliver: An Examination of the Postal Service’s Current
Financial Crisis and its Future Viability, dated April 15, 2010, to the Committee on Oversight and Government Reform
and the Subcommittee on the Federal Workforce, Postal Service, and the District of Columbia, U.S. House of
Representatives.
2
  Consists of the Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS).
Substantial Savings Available by Prefunding Pensions                                  FT-MA-11-001
 and Retirees’ Health Care at Benchmarked Levels



Conclusion

Benchmarking results indicate the Postal Service has prefunded its pension and retiree
health benefits plans at substantially higher levels than other entities. Many entities in
the public and private sectors fund these future liabilities at less than 100 percent. By
defining the prefunding requirements to standards set by other organizations, the Postal
Service has an opportunity to substantially meet its obligation while conserving cash
and improving its financial condition.

Prefund Pensions at 80 Percent and Retiree Health Care at 30 Percent

Our benchmarking results showed the Postal Service could fund pensions and the
retiree health care fund at less than 100 percent of actuarial liabilities. The Standard
and Poor’s companies’ (S&P 500) median prefunding level for pensions in 2009 was
79 percent of liabilities.3 The aggregate prefunding for states’ pensions in 2008 was also
79 percent.4 In addition, the Government Accountability Office (GAO) reported that
many experts consider at least 80 percent prefunding to be sound for government
pensions.5 Further, the Pension Protection Act of 2006 considers pensions prefunded at
less than 70 percent as being “at risk” and attempts to protect such plans by
commencing restrictions on corporate pension funds only when prefunding is below
80 percent. By contrast, the federal government has funded its combined CSRS and
FERS pension obligations at only 41 percent of liabilities6 and the military’s prefunding
for pensions is only 24 percent. From these results, we concluded 80 percent
prefunding of pensions is reasonable.

Moreover, we determined the average level that Fortune 1000 companies prefund
retiree health care (many do not prefund) is 28 percent with the military prefunding at
29 percent. In addition, we determined that state governments that prefund retiree
health care averaged 30 percent. By contrast, the federal government does not prefund
its retiree health care at all, even though its liabilities result from using the same plans
as the Postal Service. Under these circumstances, we can make a strong case for the
Postal Service to prefund at reduced levels, such as those found in the private and
public sectors. More than simply a matter of principle, reduced prefunding would provide
the Postal Service with significant financial relief.

There is no statute governing public sector pension plans or retiree health benefits that
defines “prefunding.” The prefunding levels established for the Postal Service are the
result of the OPM setting funding requirements for the CSRS and FERS pension plans7
and the Postal Accountability and Enhancement Act of 2006's (Postal Act of 2006)

3
  From 2001 through 2009, S&P 500’s pension median prefunding ranged from 73 to 112 percent.
4
  From 2001 through 2009, state governments’ aggregate pension prefunding ranged from 59 to 90 percent.
5
  The GAO's State and Local Government Retiree Benefits Current Funded Status of Pension and Health Benefits,
January 2008.
6
  The 41 percent does not include the Postal Service’s portion of CSRS and FERS.
7
  The Postal Act of 2006 suspended funding CSRS by the Postal Service until FY 2017.




                                                       2
Substantial Savings Available by Prefunding Pensions                                       FT-MA-11-001
 and Retirees’ Health Care at Benchmarked Levels


funding requirements for Postal Service retirees' health care. Although statutes
governing prefunding of retirees' health care do not explicitly mandate a target
prefunding level, by their operation, they will force the Postal Service to eventually
prefund at or above 100 percent. Thus, 100 percent prefunding by the Postal Service for
its retirement obligations is implied.

At the end of FY 2009, the OPM projected the CSRS fund balance for the Postal
Service to be $197.5 billion with liabilities of $207.1 billion. The Postal Service had
prefunded 95 percent of its CSRS liabilities. In addition, the OPM projected $76.1 billion
in assets in the FERS plan and $69.3 billion in liabilities. The Postal Service prefunded
the FERS plan at 110 percent.

We believe 80 percent prefunding for pensions and 30 percent prefunding for retirees’
health care represents a reasonable level in addressing retirees’ needs, yet also
provides the Postal Service with a means of halting its current financial slide. During
financially lucrative periods, management could choose to prefund at higher levels.
Consequently, there would no longer be a need for Postal Act of 2006 funding
requirements averaging $5.6 billion, as this new obligation to maintain annual funding at
a 30 percent level would supersede the act’s requirements. If the Postal Service
implemented both prefunding levels, it would save $60.6 billion.8 See Appendix B for
our detailed analysis of this calculation and Appendix C for our detailed monetary
impact calculation.

The federal government could retain this amount in the current funds; however,
reducing the funding levels would eliminate the need for the Postal Service to make
payments to the pension and retiree health care funds until the lowered funding
threshold is reached. Relief from these payments would provide the Postal Service with
much needed time to develop a strategic plan to transform itself to succeed in the new
digital age.

We recommend the chief financial officer and executive vice president, in coordination
with the vice president, Government Relations and Public Policy:

1. Pursue necessary changes that would permit the Postal Service to prefund pension
   and retiree health care funds to benchmarked levels of 80 and 30 percent,
   respectively, of liabilities.




8
    This amount includes $5.5 billion in savings from prefunding FERS in excess of 100 percent.




                                                           3
Substantial Savings Available by Prefunding Pensions                 FT-MA-11-001
 and Retirees’ Health Care at Benchmarked Levels


Management’s Comments

Management advised they understood that the funding benchmarks we identified would
put them on a more level playing field with other organizations. However, due to
pending legislation that assumes 100 percent funding levels, they cannot agree with the
recommendation at this time. Management will continue to work with Congress and the
administration to address this matter and other OIG recommendations related to
restructuring the funding provisions for Postal Service retirement plans. Management
agreed with the monetary impact and plans to resolve these issues during FY 2011.
See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation. The
purpose of the recommendation was to identify a means of improving the Postal
Service’s financial condition by reducing contributions to the pension and retiree health
care plans to benchmarked standards. While we still believe that prefunding at
benchmarked levels represents a reasonable level in addressing retirees’ needs while
also providing the Postal Service with a means of halting its current financial slide, we
acknowledge the Postal Service’s efforts to work with Congress to restructure funding
provisions. Accordingly, we will not pursue this issue at this time. We will continue to
monitor the progress of the Postal Service’s efforts to address retiree benefits and
improve its financial condition.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Stephen J. Masse
    Kimberly A. Weaver
    Corporate Audit and Response Management




                                                   4
Substantial Savings Available by Prefunding Pensions                                  FT-MA-11-001
 and Retirees’ Health Care at Benchmarked Levels


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has prefunded its retirees’ pension9 obligations at close to 100
percent of the OPM’s actuarially estimated liabilities. These payments have contributed
significantly to the Postal Service’s dire financial condition.

Currently, the Postal Act of 2006 does not require the Postal Service to contribute the
employer’s share to the CSRS. By June 15, 2017, if any liability exists, the OPM must
establish an amortization schedule that commences on September 30, 2017, and
liquidates the entire supplemental liability by September 30, 2043. Based on the OPM’s
FY 2009 projections, the Postal Service has an unfunded liability of about $10 billion,
with $197.5 billion in assets and $207.1 billion in liabilities.

With respect to FERS, the Postal Service is required to contribute to the plan pursuant
to Title 5 U.S.C. § 8423. As of September 30, 2009, projected liabilities total $69.3
billion while assets were projected at $76.1 billion. The Postal Service has overfunded
the plan by $6.8 billion.

For its retirees’ health care, the Postal Service is increasing its prefunding level. The
increase is a result of the Postal Act of 2006’s requirements to prefund retirees’ health
care at about $5.6 billion per fiscal year from 2007 through 2016. In FY 2017, the Postal
Service is required to pay current retiree health care premiums directly from the Postal
Service Retiree Health Benefits Fund (PSRHBF)10 along with payments to liquidate any
liability in the PSRHBF by September 30, 2056. Although the statutes governing the
PSRHBF do not explicitly mandate a target prefunding level, by their operation, they will
force the Postal Service to eventually prefund the PSRHBF at or above 100 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this management advisory was to identify and benchmark prefunding
levels of public and private sector entities for both pensions and retiree health benefits
and determine whether substantial opportunities exist for cost savings for the Postal
Service. We accumulated information from inspector general testimonies to Congress,
the Postal Service’s 2009 annual report, benchmarking, and other sources to prepare
this report. We did not rely on computer-generated data to support the opinions and
conclusions presented in this report.




9
  Pensions consist of the CSRS and FERS. Prefunding levels for the two on September 30, 2009, were 95 percent
and 110 percent, respectively.
10
   Currently, the Postal Service must pay current retiree health care premiums from operating funds.




                                                       5
     Substantial Savings Available by Prefunding Pensions                                     FT-MA-11-001
      and Retirees’ Health Care at Benchmarked Levels


     We conducted this review from May through November 2010 in accordance with the
     Quality Standards for Inspections.11 We discussed our observations and conclusions
     with management officials on August 13, 2010, and included their comments where
     appropriate.

     PRIOR AUDIT COVERAGE

     We issued the following reports addressing opportunities for recovering overfunded
     amounts related to employees and retirees benefits. Management generally agreed with
     our recommendations that included seeking financial relief.

                                                              Final
                                                             Report
     Report Title               Report Number                  Date                        Report Results
Summary of                       FT-MA-10-002               9/30/2010        This report summarizes the results of
Substantial                                                                  four OIG reports identifying overfunding
Overfunding in Postal                                                        issues in employee and retiree benefit
Service Pension and                                                          funds. It recommends management
Retiree Health Care                                                          develop a comprehensive legislative
Funds                                                                        strategy to recover overfunded amounts
                                                                             and review all available data related to
                                                                             pensions and retiree health benefit
                                                                             calculations to ensure that calculations
                                                                             are reasonable and accurate.
Federal Employees                FT-MA-10-001               8/16/2010        This report identifies that the Postal
Retirement System                                                            Service overfunded its FERS
Overfunding                                                                  contributions by $5.5 billion. In addition,
                                                                             there is no present legislation to resolve
                                                                             surpluses. Further, it recommends that
                                                                             the Postal Service’s pension
                                                                             responsibilities be clearly delineated and
                                                                             separated from those of the rest of the
                                                                             federal government.
Civil Service                    CI-MA-10-001               6/18/2010        The report discusses the $75 billion
Retirement System                                                            CSRS overfunding by the Postal Service,
Overpayment by the                                                           assesses the related facts, and identifies
Postal Service                                                               solutions.




     11
        These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
     Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978,
     as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
     (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
     to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                              6
      Substantial Savings Available by Prefunding Pensions                       FT-MA-11-001
       and Retirees’ Health Care at Benchmarked Levels


                                                         Final
                                                        Report
     Report Title             Report Number               Date                   Report Results
The Postal Service’s         RARC-WP-10-001            1/20/2010   This report discusses the inequities of the
Share of CSRS                                                      current system of funding of the Postal
Pension Responsibility                                             Service’s CSRS pension responsibility
                                                                   and explains that it has resulted in an
                                                                   overfunding of $75 billion.
Estimates of Postal          ESS-MA-09-001(R)          7/22/2009   This report questions the OPM’s
Service Liability for                                              assumption that the annual health care
Retiree Health Care                                                cost inflation rate will average 7 percent
Benefits                                                           annually for all future years.




                                                         7
   Substantial Savings Available by Prefunding Pensions                  FT-MA-11-001
    and Retirees’ Health Care at Benchmarked Levels


                                  APPENDIX B: DETAILED ANALYSIS

                                  Calculation of Overfunded Pensions
                                     and Retiree Health Care Using
                                     Benchmarked Funding Levels

                                                                         Amounts in Billions
Pensions:

Total liabilities (projected) (CSRS plus FERS) at September 30, 2009      $ 276.4

Add additional liabilities resulting from recent changes                       1.3

Total liabilities                                                           277.7

80 percent of total liabilities                                             222.2

Total assets (CSRS plus FERS) at September 30, 2009                         273.6

Amount overfunded (Total assets minus 80 percent of total liabilities)                  $ 51.4

Retiree Health Care:

OPM’s actuarial liability at September 30, 2009                           $ 87.5

30 percent of liability                                                       26.3

Assets                                                                    $ 35.5

Amount overfunded (assets minus 30 percent of liability)                                $   9.2

Total Amount Overfunded                                                                 $ 60.6




                                                      8
Substantial Savings Available by Prefunding Pensions                                        FT-MA-11-001
 and Retirees’ Health Care at Benchmarked Levels


                                  APPENDIX C: MONETARY IMPACT

Current OPM funding rules state that underfunded amounts are amortized over 30
years and the annual payment represents a supplemental amount in addition to the
normal cost. No provision for correcting a surplus currently exists; therefore, the current
rules are described as “asymmetric.” 12

We assume the overfunded amount could be corrected in a manner analogous to
OPM’s funding rules for an underfunded situation whereby that amount is amortized
over 30 years and the resulting annual payment is then deducted from any required
Postal Service contributions to OPM. Effectively, the Postal Service would be providing
OPM with a 30-year loan at 5.75 percent annual interest.

Changing the required funding levels of the funds would effectively reduce the required
assets and create a combined overfunding amount of $99.8 billion.

                                         Funds Put to Better Use13

             Overfunded pensions and retiree health care                                 Amount
             Annual FERS Payment Reduction Amount
             Resulting from Amortizing $99.8 billion in
             Overfunding Over 30 years14                                           ($7,057,480,614)

              Present Value of Cumulative Annual Reduction
              Amounts for a 10-year period15                                        $59,832,372,092




12
   Not identical on both sides of a central line.
13
   Funds that could be used more efficiently by implementing recommended actions.
14
   Using the OPM’s current discount rate of 5.75 percent.
15
   Using the Postal Service’s current cost of capital rate of 3.875 percent. OIG policy allows monetary impact to be
calculated for a 10-year period.




                                                           9
Substantial Savings Available by Prefunding Pensions    FT-MA-11-001
 and Retirees’ Health Care at Benchmarked Levels


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                   10
Substantial Savings Available by Prefunding Pensions    FT-MA-11-001
 and Retirees’ Health Care at Benchmarked Levels




                                                   11
